No. 20-1029

 

In THE
Supreme Court of the United States

Crry or AUSTIN, TEXAS,
Petitioner,

v.
REAGAN NATIONAL

ADVERTISING OF AUSTIN, INC., ET AL.,
Respondents.

On Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit

BRIEF OF
LAND DEVELOPERS,
CHAMBERS OF COMMERCE, AND
SCENIC ORGANIZATIONS
AS AMICI CURIAE
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,540 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 20, 2021.

Colin Casey\Hogan
Wilson-Epes Printing Co., Inc.
